Raul Mendez
2712 N Goldeneye Way
Meridian, Idaho 83646
Telephone: (208) 871-7237
raulmendez02@yahoo.com
Pro Se

Supreme Court, U.S.
FILED

SEP 17 2021
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
RAUL MENDEZ,
Petitioner,
Vs.
City of Boise, et al.

Supreme Court No.
9th Circuit No. 20-35474
District Court No. 1:20-cv-00061-BLW
MOTION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF
CERTIORARI

Respondents.

Pro Se Petitioner Raul Mendez, Respectfully requests a three month extension to file a Petition
for Writ of Certiorari. This request is made in good faith and is supported by the facts and
attached exhibits in support of it. The Order denying rehearing was filed on August 2, 2021 and
the 90 day deadline to file the petition on 11/1/2021. Mendez requests a 90 day extension from
11/1 /2021 but he will diligently work to file the petition before then.
ARGUMENT
Mendez will be filing two separate Petitions for Writ of Certiorari for two differe

ECEIVED
therefore the reason he needs more time to prepare the petition for both. Mende hown Rn.
OFFICE OF THE CLERK
SUPREME COURT U.S

is currently vacated because he spends the majority of his time at his mother's house. She is
disabled and he is her caregiver. Mendez does NOT use trash and sewer service because his
home is vacated. The Idaho Legislature has passed laws that allow local Counties and
Municipalities to mandate utilities such as trash and sewer services. Mendez questions the
constitutionality of both the Idaho Code and the local Ordinances mandating utility services
when at the same time people in Idaho can discontinue other utility services provided by private
companies. The mandating of services is questionable, but more problematic is the fact that
local government entities can certify non-paid services to the property tax roll. However, the
plain language of the Idaho Laws makes it clear that local government entities cannot certify
unused service to the property tax roll or engage in other collection efforts for unused services.
The City of Boise has sued Mendez in small claims to collect a debt for unused sewer service,
continue to send collections letters for unused sewer service, and has filed a fraudulent lien
without any document attached to it because there is no certification from the Magistrate
Court

all of these despite the fact that Mendez has spent over two years telling Boise that his

home is vacated. Furthermore, Mendez completed the "residential request for vacancy status
application" which does not indicate that people are still required to pay a 'base fee' for unused
service. Boise indicated to Mendez that they hold hearings to disconnect sewer for unpaid
services and that he could also request with the Mayor/city Council to waive the 'base fee' on
unused service, but both offices did not respond to Mendez. Mendez filed a complaint which
District Judge Winmill dismissed for failure to 'state a claim' and without an opportunity to
amend. Judge Winmill is also the same court dismissing the other pro se complaint for unused
trash service filed by Mendez. Both cases were dismissed without an opportunity to amend the
complaint even though the Supreme Court has instructed federal courts to liberally construe pro

se complaints and complaints alleging municipal liability under USC 1983 cannot be subjected
to a heightened pleading standard.
Mendez understood that people have a right to appeal, but he also found out that the 9th Circuit
is closing the doors of the courts to unrepresented parties like Mendez as illustrated by the list of
"Unpublished Opinions" made up by a significant portion of pro se parties. Furthermore, it
appears that many affirmed unpublished opinions of pro se parties are made up of cases
dismissed in District Court for failure to state a claim

and then many people in need are being

denied access to justice even when the Supreme Court history shows that people should be
protected in their enjoyment of their personal and civil rights and access to the courts is
necessary for protection of such rights, for the prevention and redress of wrongs. Mendez
appealed to the 9th Circuit after Judge Winmill dismissed both pro se complaints where the
central issue is that Mendez is being subjected to adverse actions for not using utilities provided
by local government entities. Case No. 20-35474 was dismissed in district court back in May 4,
2020 and Case No. 20-35917 was dismissed in district court back in September 21, 2020. Was
the same panel assigned to both cases separated by a five month gap? It is Mendez belief that
there are irregularities and improprieties in the handling of both appeals by the 9th Circuit and as
such only the Supreme Court can reverse or vacate the decisions. Mendez understands that
under Rules, he can file a Motion for New Trial when irregularities are present during those
proceedings, but Mendez only avenue to remedy the panel's decision on appeal is to file a
Petition for Rehearing En Banc which he did.
Mendez understanding of the 9th Circuit "court structure and procedures" attached to the Federal
Appellate Rules is that two separate panels would have been assigned to both of Mendez cases.
Exhibit 1, 6 pages. However, on the exact same date of April 23, 2021; it appears that the same

3

panel issued a near identical unpublished opinion for both cases. The unpublished opinions are
near identical to the other ones involving pro se parties consisting of 2-3 pages without any
reference to specific facts or the record. Exhibit 2, 7 pages. Furthermore, how is it possible
that the same panel issued an unpublished opinion on the same date? Mendez is not aware that
both cases were 'consolidated.' Mendez petitioned for Rehearing En Banc. Exhibit 3, 18
pages.
Again, the same panel indicated on the same date of August 2, 2021 that the 9th circuit denied
rehearing en banc for both cases and that no further filings would be accepted even though the
rules do allow for a Motion to Stay the Mandate Exhibit 4, 2 pages. Mendez filed to stay the
Mandate on August 9, 2021. Exhibit 5, 6 pages. The 9th Circuit issued the Mandate on one
case the next day on August 10, 2021 and on the same day also denied the Motion to Stay
Mandate in the other case....and on August 13, 2021, the panel denied the Motion after the
Mandate had already being issued. Exhibit 6, 3 pages.
Mendez believes that under the continued wrong doctrine that he would not be barred from
bringing the same claims against the local government entities, since Ada County has already
certified the unused trash service to the property tax roll on August 30, 2021 without the
opportunity to waive the fee and without Due Process. It has already been established that the
County has a waiver and that such hearing takes place with the Commissioners but the County
continues to deny it to Mendez. Boise has also indicated they would send Mendez to collections
including another small claims to collect on unused sewer. Exhibit 7, 2 pages. Therefore,
Mendez believes that the factors described in the body of this Motion are persuasive for the
Supreme Court to hear them, because they involve important social issues in which local
government entities: 1) are taking adverse actions against people without Due process for failing

to pay unused services, 2) are mandating services , and 3) there is a waiver for things like
vacancy, but when requested is denied to some people without the ability to provide evidence
that service is not being used

and clearly the local government entities are also making sure

that people like Mendez will also not be able to prove in court that he is not using the services It
is of particular importance for the Supreme Court consideration the fact that the federal courts at
the District and Circuit level are denying access to justice to minorities, indigent and
unrepresented parties in cases involving Civil and Constitutional rights as both of Mendez cases
illustrate. While the primary concern of the Supreme Court is not to correct errors, the blatant
disregard of Supreme court precedents and irregularities on both of Mendez cases, including the
questionable issuing of a near identical unpublished opinion on the same date by the same 9th
circuit panel suggests that the Supreme Court should give consideration to hearing Mendez cases
to correct those errors or simply overrule the cases without comment.
CONCLUSION
Mendez is aware that Supreme Court review is discretionary and a very small number of cases
are hear by it. However, the evidence submitted on Mendez exhibits proves that access to both
the District Court and Circuit have become discretionary for pro se parties with many of their
civil rights/constitutional claims ending up being dismissed for failing to state a claim, only to
later get unpublished opinions under questionable circumstances at the circuit. Mendez needs
additional time to prepare Petitions for Writ of Certiorari on the two cases described above
noting that he has to cite authorities, therefore more research and preparation are necessary,
therefore, Mendez respectfully requests an extension to file the Petition be GRANTED.
DATED: September 17, 2021
,e)/1
Raul Mendez

